     DEPARTMENT OF HOMELAND SECURITY

       Office of Inspector General



               AMOC Needs To Improve Written
             Guidelines For Providing Assistance To
                        Other Agencies




Notice: The Department of Homeland Security, Office of Counsel to the Inspector General, has reviewed
this report and excised information according to the Freedom of Information Act, 5 U.S.C. Section 552, as
amended. The report also has been edited minimally to preserve continuity and comprehension.




        Office of Audits
OIG-04-20            March 2004
                                              Preface


The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG periodically as part of its oversight responsibility with respect to DHS to
identify and prevent fraud, waste, abuse, and mismanagement.

This report is the result of an assessment of the strengths and weaknesses of the program,
operation, or function under review. It is based on interviews with employees and officials of
relevant agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed on the basis of the best knowledge available
to the OIG, and have been discussed in draft with those responsible for implementation. It is
my hope that this report will result in more effective, efficient, and/or economical operations. I
express my appreciation to all of those who contributed to the preparation of this report.




Richard L. Skinner
Deputy Inspector General
                                                                                                                        Contents

  Introduction.................................................................................................................................... 3

  Results in Brief ................................................................................................................................4

  Background .................................................................................................................................... 5

  Assistance Provided To DPS Was Consistent With AMOC’s Mission and Policies .................... 9

  AMOC Needs To Improve and Enforce Written Guidelines For Providing Assistance .............. 13

  AMOC Needs To Establish Performance Measures To Assess Its Effectiveness
  and Productivity ........................................................................................................................... 18

Appendices

  Appendix 1:                 Purpose, Scope, and Methodology.................................................................. 21
  Appendix 2:                 Management Comments ................................................................................. 22
  Appendix 3:                 Recommendations........................................................................................... 25
  Appendix 4:                 Major Contributors To This Report ................................................................ 26
  Appendix 5:                 Report Distribution ......................................................................................... 27

Attachment

  Attachment 1:               Redacted Transcript of First DPS Tape .......................................................... 28

Abbreviations

  AMICC                      Air and Marine Interdiction Coordination Center
  AMO                        Office of Air and Marine Operations
  AMOC                       Air and Marine Operations Center
  Customs                    United States Customs Service
  DAT                        Digital Audio Tape
  DHS                        Department of Homeland Security
  DoD                        Department of Defense
  DPS                        Department of Public Safety
  DSS                        Detection System Specialist
  FAA                        Federal Aviation Administration



         AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies                                                    Page 1
Contents

   FSO              Facility Standardization Officer
   FY               Fiscal Year
   GPRA             Government Performance and Results Act
   ICE              Immigration and Customs Enforcement
   JIATF            Joint Interagency Task Force
   MOU              Memorandum of Understanding
   NCRCC            National Capital Region Coordination Center
   OIG              Office of Inspector General
   PDD              Presidential Decision Directive
   PDT              Pacific Daylight Time
   P.L.             Public Law
   ROI              Report of Investigation
   SCDO             Supervisory Command Duty Officer
   SDSS             Senior Detection System Specialist
   Secret Service   United States Secret Service
   SOP              Standard Operating Procedure
   Treasury         Department of the Treasury
   U.S.             United States
   U.S.C.           United States Code




Page 2               AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies
OIG
Department of Homeland Security
Office of Inspector General


    Introduction
                                 This report presents the results of the Office of Inspector General’s (OIG)
                                 audit of the Immigration and Customs Enforcement’s (ICE) Air and Marine
                                 Operations Center (AMOC). The audit was initiated as a result of congressional
                                 concerns regarding AMOC’s use of its assets to locate an aircraft believed to
                                 be transporting Texas state legislators. AMOC, formerly called the Air and
                                 Marine Interdiction Coordination Center (AMICC), is a national interagency
                                 law enforcement facility utilizing civil aviation and military sensor networks
                                 to support law enforcement and national defense operations throughout the
                                 Western Hemisphere. Staffed by experienced law enforcement professionals and
                                 military air traffic personnel, AMOC continuously monitors air traffic over the
                                 United States (U.S.), Canada, Mexico, and the Caribbean. This allows AMOC
                                 to identify, track, and support the interdiction and apprehension of violators
                                 attempting to enter U.S. airspace with illegal drugs or terrorist objectives.

                                 On May 12, 2003, AMOC provided assistance to the Texas Department of Public
                                 Safety (DPS) in locating an aircraft believed to be transporting Texas state
                                 legislators from Oklahoma to Texas. The Department of Homeland Security
                                 (DHS) OIG was requested by Congress to conduct an investigation of the events
                                 that occurred regarding the assistance AMOC provided to the DPS. 1 The OIG
                                 conducted a criminal investigation focused on the alleged misuse of DHS assets
                                 in assisting state law enforcement in locating a reported missing aircraft. The
                                 OIG released its Report of Investigation (ROI) detailing its findings on June 13,
                                 2003. In the ROI, the OIG concluded that AMOC provided assistance to DPS
                                 consistent with its guidelines. In the course of the investigation, however, the
                                 OIG determined that a review of AMOC’s guidelines for rendering assistance to
                                 federal, state, and local law enforcement agencies was warranted.

                                 The overall objective of this audit was to assess the propriety of AMOC’s existing
                                 guidelines for rendering assistance to federal, state, and local law enforcement
                                 agencies. We conducted our fieldwork from July 2003 through September 2003.
                                 Fieldwork was conducted at the Office of Air and Marine Operations (AMO) in

    1
     Inspector General Clark Kent Ervin recused himself from any participation in this matter due to his prior employment by the State of
    Texas, and the possibility that he might know one or more of the State of Texas employees involved in this matter.


               AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies                                    Page 3
                               Washington, D.C.; the AMOC facility in Riverside, California; and the National
                               Capital Region Coordination Center (NCRCC) in Herndon, Virginia. A more
                               detailed description of our purpose, scope, and methodology is provided as
                               Appendix 1.

Results in Brief
                               AMOC needs to improve its written guidelines for rendering assistance to
                               federal, state, and local agencies in law enforcement and emergency humanitarian
                               efforts. Guidelines were general in nature and did not include specific procedures
                               to verify that requests for assistance were valid and appropriate requests from
                               legitimate federal, state, and local law enforcement agencies. Furthermore,
                               existing procedures for rendering assistance to law enforcement agencies were not
                               always followed. In addition, AMOC did not have organizational performance
                               measures and individual performance standards to assess AMOC’s effectiveness
                               and productivity.

                               We also confirmed that assistance rendered to the Texas DPS by AMOC was
                               consistent with AMOC’s mission and policy of providing assistance to federal,
                               state, and local law enforcement agencies. AMOC’s policy was to presume
                               that any request from a law enforcement agency, whether law enforcement
                               or humanitarian in nature, was valid and would not be denied if staffing and
                               resources were available. AMOC received two requests for assistance from
                               DPS on May 12, 2003. At the time the two DPS requests were received, AMOC
                               staff believed that the first inquiry was a legitimate request for law enforcement
                               assistance and the second was a legitimate request for humanitarian assistance,
                               both from a law enforcement agency. However, AMOC officials did not take
                               specific measures to verify the nature or legitimacy of the requests because
                               AMOC procedures did not require them to do so. Accordingly, AMOC provided
                               current and past flight plan information to DPS. At the time the requests were
                               made, flight plan information was considered “open source” information, which
                               is defined as any information available to the general public, and has no federal
                               restrictions on its release.2




2
  As a result of the May 12, 2003, incident, on July 15, 2003, the Federal Aviation Administration (FAA) amended its written procedures
to impose restrictions on the release of aircraft tracking (flight plan) information. According to FAA Order 7210.3, Facility Operation
and Administration Handbook, (Chapter 2-1-5. Release of Information), “No request for Flight Track Data shall be granted unless it is
first determined that the request is being made in the interest of aviation safety or efficiency, or for an official purpose by a United States
Government agency or law enforcement organization with respect to an ongoing investigation.”



Page 4                           AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies
                    We are recommending that the AMO Director: (1) revise AMOC guidelines for
                    providing assistance to federal, state, and local agencies in law enforcement and
                    emergency humanitarian efforts; (2) provide refresher training for all operations
                    floor staff and reiterate the importance of understanding and following existing
                    procedures; (3) document the type of assistance provided, e.g., law enforcement
                    or humanitarian, so that these statistics can be easily tracked by the new electronic
                    contact database developed by AMOC; (4) develop organizational performance
                    measures and individual performance standards to evaluate the effectiveness
                    and productivity of both AMOC and its personnel; and (5) prepare meaningful
                    management reports to show workload statistics that measure overall productivity.

Background
                    In 1969, Congress established the United States Customs Service (Customs)
                    Aviation Program to stem the flow of drug smuggling across U.S. borders via
                    light, private aircraft. In 1971, the Customs Air Interdiction Program began
                    operations with a small fleet of confiscated aircraft. Spurred by the increasing
                    threat of drug smuggling via light, private aircraft, Customs began experimenting
                    with radar interdiction operations during the 1970s and early 1980s. Utilizing
                    Federal Aviation Administration (FAA) and Department of Defense (DoD)
                    fixed and mobile radar sites, Customs conclusively proved the value of radar
                    in stemming the flow of illegal drugs across the U.S. borders, with one critical
                    shortcoming: once a smuggling aircraft was detected it quickly escaped by
                    passing out of range of conventional radar facilities.

                    To address this shortcoming, Customs opened the Command, Control,
                    Communications and Intelligence Center located in Riverside, California, in
                    August 1988. A similar facility was opened in Richmond Heights, Florida, a few
                    months later. Both facilities were consolidated at the Riverside, California facility
                    in October 1994 and the new facility was renamed the Domestic Air Interdiction
                    Coordination Center. In 1999, the Air and Marine Programs merged and the
                    Air and Marine Interdiction Division was created and the name of the Riverside
                    facility was changed to the Air and Marine Interdiction Coordination Center.
                    Effective March 1, 2003, Customs was transferred from the Department of the
                    Treasury (Treasury) to DHS. As a result, the AMICC was assigned to ICE, one of
                    two new Bureaus under the DHS Border and Transportation Security Directorate.
                    The AMICC was renamed the Air and Marine Operations Center and the Air and
                    Marine Interdiction Division became the Office of Air and Marine Operations.
                    AMOC reports to ICE through AMO.



     AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies          Page 5
                              AMOC’s mission is to utilize integrated air and marine forces, the latest
                              technology, and tactical intelligence to detect, sort, track, and facilitate the
                              interdiction of criminal entities throughout the Western Hemisphere. According
                              to AMOC, its capabilities for detection, classification, and prosecution of inbound
                              low flying aircraft do not exist anywhere else. Because of its extensive capability,
                              AMOC is also providing airspace security coverage over Washington, D.C. and
                              has provided airspace security for a number of significant events, including the
                              2002 Winter Olympics and the 2003 Super Bowl. AMOC also provided airspace
                              security for Operation Liberty Shield.3 AMOC has become the focal point for
                              protecting the security of the United States through the tactical direction of ICE in
                              the war on air and marine smuggling.

                              Personnel assigned to AMOC include a Director, Assistant Directors, Operations
                              Officers, Training Officer, Supervisory Command Duty Officers (SCDO), Senior
                              Detection Systems Specialists (SDSS), Detection Systems Specialists (DSS),
                              Telecommunication Specialists, Intelligence Research Specialists, and a small
                              support staff. DSSs have a variety of federal and state law enforcement computer
                              systems at their fingertips, allowing them to provide detailed information on the
                              movement, registration, and criminal histories of aircraft, vessels, vehicles, and
                              individuals.

                              This complex communication network gives AMOC personnel the ability to
                              speak directly with federal, state, and local law enforcement agencies, ensuring
                              a carefully coordinated response whether investigating suspicious activity or
                              securing support for ICE interdiction teams in the field. This capability also
                              proves useful when the DSS needs to determine if the caller is a legitimate law
                              enforcement officer. AMOC does not have caller identification capabilities for
                              external incoming calls. However, the DSS can quickly search the databases and
                              display the official numbers for verification when necessary.

                              Since September 11, 2001, AMOC has turned its surveillance and database
                              capabilities toward protecting the people of the United States from further
                              terrorist assaults while continuing to deter the smuggling of narcotics into the
                              United States. Whether identifying and tracking suspects, providing 24-hour
                              surveillance on high priority targets, or performing airspace security missions,
                              AMOC is a vital link in the Homeland Security network. AMOC’s mission was
                              expanded as a result of September 11, 2001, to include the following Homeland

3
 Operation Liberty Shield was launched in March 2003 to increase security and readiness in the United States. Part of Operation Liberty
Shield was to control vital airspace and enforce new temporary flight restrictions that were put into place over certain U.S. cities, including
Washington, D.C. and New York City.


Page 6                          AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies
               Security surveillance and law enforcement support requirements: (1) increased
               internal domestic surveillance and law enforcement support, which included
               counter-terrorism and money laundering; (2) increased support to the Office of
               Air and Marine Branches and Units; (3) increased inter-agency coordination with
               the Federal Bureau of Investigation; Bureau of Alcohol, Tobacco, Firearms, and
               Explosives; the United States Secret Service (Secret Service); and other agencies;
               (4) increased interior radar coverage; and (5) the addition of direct intelligence
               support to Homeland Security.

               Legal Authorities

               AMO has various sources for different legal authorities, including numerous laws
               and Presidential Decision Directives (PDD). Certain authorities originated with
               Treasury and the former Customs. Pursuant to 19 United States Code (U.S.C.) §
               1589a, enforcement authority of customs officer, “Subject to the direction of the
               Secretary of the Treasury, an officer of the customs may – (1) carry a firearm; (2)
               execute and serve any order, warrant, subpoena, summons, or other process issued
               under the authority of the United States; (3) make an arrest without a warrant for
               any offense against the United States committed in the officer’s presence or for
               a felony, cognizable under the laws of the United States committed outside the
               officer’s presence if the officer has reasonable grounds to believe that the person
               to be arrested has committed or is committing a felony; and (4) perform any other
               law enforcement duty that the Secretary of the Treasury may designate.”

               The authorities in 19 U.S.C. § 1589a were transferred to the Secretary of
               Homeland Security, along with all other functions, personnel, assets, and
               liabilities of Customs, pursuant to section 403(1) of the Homeland Security Act
               of 2002, Public Law (P.L.) 107-296, dated November 25, 2002. Subsequently,
               the Secretary delegated the authorities under 19 U.S.C. § 1589a to the Assistant
               Secretary of ICE. The Secretary also delegated to the Director of AMO the
               authority and responsibility to supervise and direct ICE activities with respect to
               air and marine interdiction, and to provide direction and supervision to the AMO
               branch chiefs and other managers as appropriate.

               Treasury’s Fiscal Year (FY) 2002 appropriations bill, P.L. 107-67, dated
               November 12, 2001, specifically provided appropriations in the amount of
               $177,860,000 for AMO including “…the provision of support to Customs and
               other Federal, State, and local agencies in the enforcement or administration of
               laws enforced by the Customs Service; and, at the discretion of the Commissioner
               of Customs, the provision of assistance to Federal, State, and local agencies in



AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies          Page 7
              other law enforcement and emergency humanitarian efforts…” Congress passed
              another law with identical language for FY 2003, P.L. 108-7, which provided
              $181,829,000 for AMO. These laws afford AMO very broad authority and
              enormous latitude as long as activities fall within the broad categories of law
              enforcement or emergency humanitarian efforts.

              AMO’s legal authority to conduct airspace security evolved from Customs’
              support to the Secret Service in national security events pursuant to PDD 62,
              Protection Against Unconventional Threats to the Homeland and Americans
              Overseas. PDD 62 requires that AMO and the Secret Service establish airspace
              security over restricted airspace at designated National Special Security Events.
              Other laws that provide legal authority for AMO include: PDD 14, Counter-
              Narcotics “Andean Strategy”; PDD 39, Counterterrorism Policy; PDD 63,
              Protecting America’s Critical Infrastructure; National Security Directive 18,
              International Counternarcotics Strategy; the National Defense Authorization
              Act of 1995; the National Drug Control Strategy of 2000; and the Western
              Hemisphere Drug Elimination Act.

Assistance Provided To DPS Was Consistent With AMOC’s Mission and
Policies
              AMOC’s assistance to DPS was consistent with its mission and policies for
              providing assistance to federal, state, or local law enforcement agencies based
              on staff’s belief that the request was legitimate. AMOC’s policy was to presume
              that any request from a law enforcement agency, whether law enforcement
              or humanitarian in nature, was valid and would not be denied if staffing and
              resources were available. On May 12, 2003, AMOC provided assistance to
              the Texas DPS by (1) reviewing past flight information on 14 aircraft that may
              have flown out of Austin, Texas, on May 10 or May 11, 2003 and (2) locating an
              aircraft believed to be transporting state representatives from Ardmore, Oklahoma
              to Georgetown, Texas. At the time the DPS requests were originally received,
              AMOC operations floor staff believed that the first inquiry was a legitimate
              request for law enforcement assistance and the second was a legitimate request for
              humanitarian assistance, both from a law enforcement agency. However, AMOC
              officials did not take specific measures to verify the nature or legitimacy of the
              request or the requestor. Accordingly, current and past flight plan information
              was provided to DPS. AMOC did not disclose any proprietary law enforcement
              information to DPS nor did DPS request any.




Page 8         AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies
               According to AMOC’s Training and Operations Manual, dated February 2002,
               the mission of the Customs Aviation Program is “To provide assistance to all
               other elements of Customs requiring aviation support. Air Support also will be
               provided to assist other federal, state, and local agencies as assets permit.”

               AMOC procedures require that any request for assistance be logged into the
               operations floor automated Air Watch Log. Procedures also require any unusual
               requests or incidents be documented and the supervisor on the operations floor
               be notified. However, AMOC procedures did not require the SDSS or the DSS
               to determine the nature and legitimacy of a request for assistance from a law
               enforcement agency. As a result, AMOC staff did not routinely question law
               enforcement officers requesting open source information nor did they routinely
               question whether the caller was a law enforcement officer. AMOC staff presumed
               all calls for assistance from law enforcement officials were legitimate and
               considered it their job to assist in whatever way they could.

               Requesting assistance under the guise of a missing aircraft in a partisan political
               endeavor and requesting past flight information on 14 aircraft represent the
               potential for abuse of public trust and improper use of federal resources.
               According to AMOC staff, had they known the true purpose of the DPS request,
               they would not have assisted DPS. The lack of clear, specific guidelines for
               providing assistance to federal, state, and local law enforcement agencies may
               increase the risk that abuse and misuse of federal resources may potentially occur
               in the future.

               We attempted to determine how many calls for assistance AMOC receives on
               a daily basis. AMOC considers requests for assistance to include reports of
               low flying aircraft and requests for and receipt of intelligence information. We
               sampled AMOC’s operations floor Air Watch Logs, Intelligence Section Watch
               Logs, and Case Management Air Reports for March and July 2003. AMOC
               operations floor and the Intelligence Section logged 14,580 entries in March
               and July 2003. The records were compiled after AMOC filtered the data
               removing administrative and other non-contact records. After AMOC filtered out
               administrative type calls, the data showed that 2,573 entry contacts were logged in
               those two months. The composite of these entries showed that AMOC logged an
               average of 42 contacts for assistance a day.

               Using the operations floor Air Watch Log, AMOC determined the number
               of requests for humanitarian assistance it received over a given period.
               AMOC’s database showed that AMOC received and logged in 314 requests for



AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies         Page 9
          humanitarian assistance from January 1999 through August 2003. Based on
          this data, AMOC received an average of six requests a month for humanitarian
          assistance.

          First Request – DPS Contacts AMOC For Assistance Regarding Flight
          History Information

          After the initial investigation by the OIG was completed, another tape of DPS
          telephone calls for assistance was discovered, of which neither the AMOC
          employees involved in the second call nor the OIG were previously aware.
          Specifically, review of this Digital Audio Tape (DAT) revealed that on
          May 12, 2003, at 1:19 p.m. Pacific Daylight Time (PDT), a call from the Texas
          DPS was placed to AMOC’s main administrative telephone number. The main
          administrative telephone number is located in the front office and is on continual
          “call forward” to the Communications Section due to a lack of staffing in the front
          office to answer this telephone. A telecommunications specialist received the call,
          identified that it was for the operations floor, and transferred it to the SDSS duty
          desk. The SDSS transferred the call to the DSS working the Gulf Coast desk.

          The first request was for past flight history information on 12 to 14 aircraft
          presumed to have left Austin-Bergstrom International Airport on May 10 or
          May 11, 2003, to determine if 2 or 3 aircraft had the same destination. The DSS
          researched the past flight history information and reported to the DPS caller that
          none of the aircraft queried that left out of Austin-Bergstrom International Airport
          had the same destination. At the time this request was originally received, AMOC
          operations floor staff believed that it was a valid request for law enforcement
          assistance from a legitimate law enforcement agency.

          The DSS did not log this first request in the automated Air Watch Log as required,
          the SDSS did not detect the omission, and neither notified the supervisor on the
          operations floor of the request for assistance. As a result, this first DPS request
          was not discovered until after the initial OIG investigation was completed. (See
          Attachment for copy of redacted transcript of first DPS tape.)

          AMOC officials stated that because policies and procedures were not followed
          regarding this request for assistance, the AMOC Incident Review Board
          would review this incident after the OIG review is completed. Following
          every significant seizure or incident, the Incident Review Board convenes,
          under the direction of an operations officer, to review operations floor actions
          as well as all pertinent documentation. The purpose of the Incident Review



Page 10    AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies
               Board is to carefully assess each incident to determine lessons learned, areas
               for commendation and improvement, and compliance with established AMOC
               operational procedures. The results of the review are published for the benefit of
               the entire AMOC facility.

               Second Request – DPS Contacts AMOC For Assistance in Locating a Missing
               Aircraft

               On May 12, 2003, at 3:28 p.m. PDT, a second request from Texas DPS to AMOC
               was received directly on the operations floor. The SDSS on duty answered the
               call, and transferred it to the DSS working the Texas desk. The DSS assisted with
               the request for information concerning a missing aircraft, traveling from Ardmore,
               Oklahoma to Georgetown, Texas, with state representatives on board. Using the
               aircraft tail number, the DSS immediately began looking for its flight plan. Unable
               to find a flight plan, the DSS set about trying to locate the aircraft by calling
               the various airports and flight services in the target area. No one could provide
               current information on the location of the aircraft. Therefore, the DSS offered the
               DPS caller the telephone number to request a search and rescue from the FAA.
               The DPS caller initially declined, and then called back to request the FAA number
               needed to initiate a search and rescue. AMOC had no further contact with Texas
               DPS.

               An Air Watch Log entry was made by the DSS handling the second request
               from the Texas DPS. Both the SDSS and the operations floor supervisor were
               aware of the request and the assistance provided. At the time this request was
               originally received, AMOC operations floor staff believed it was a valid request
               for humanitarian assistance from a legitimate law enforcement agency; however,
               AMOC did not verify the source or the substance of the request.

               In the earlier call, the DPS asked AMOC for information on 14 aircraft to
               determine if 2 or 3 aircraft had the same destination. Calls on the operations floor
               are recorded on three different DAT recorders. The first call was routed to the
               Gulf Coast desk, which was recorded on a different DAT recorder than the second
               request, which was handled by the DSS working the Texas desk. As a result,
               coupled with the fact that the first request was not logged in the automated Air
               Watch Log as required, the first request went undetected by the AMOC employees
               involved with the second request.




AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies        Page 11
AMOC Needs To Improve and Enforce Written Guidelines For Providing
Assistance
              AMOC’s Guidelines For Providing Assistance Were General and Did Not
              Require Verification of the Legitimacy of the Request or Requestor

              AMOC needs to improve written guidelines for rendering assistance to federal,
              state, and local agencies in law enforcement and emergency humanitarian efforts.
              AMOC’s Standard Operating Procedure (SOP) 01, dated October 1, 2001,
              Subject: Personnel Responsibilities and Duties, provides guidance on personnel
              responsibilities and duty requirements. AMOC’s Training and Operations Manual
              details the duties and responsibilities of a DSS. However, these guidelines were
              very general in nature and neither the SOP nor the Training and Operations
              Manual contained specific procedures to verify that requests for assistance
              were valid and appropriate requests from legitimate federal, state, and local law
              enforcement agencies. For example:

                 •    Guidelines did not include procedures to verify the legitimacy of the
                      request for assistance.

                 •    Guidelines did not include a clear description of what constituted a
                      legitimate request for law enforcement or humanitarian assistance.

                 •    Guidelines did not include a clear definition for what was considered a
                      significant or unusual incident.

                 •    Guidelines did not include procedures for call back verifications of the
                      requestor when applicable.

              AMOC staff did not routinely question law enforcement officers requesting
              assistance for open source information because AMOC procedures did not
              require the SDSS or the DSS to determine the nature and legitimacy of this type
              of request for assistance. AMOC staff presumed all calls for assistance from
              law enforcement officials were legitimate and considered it their job to assist if
              staffing and resources permitted.

              Lack of clear guidelines governing the assistance AMOC provides to federal,
              state, and local law enforcement agencies create the potential that public trust




Page 12        AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies
               may be abused, federal resources misused, and sensitive information may be
               inappropriately disclosed.

               During our July 2003 site visit to AMOC, we recommended that AMOC
               improve guidelines for providing law enforcement and humanitarian assistance.
               Specifically, we recommended that guidelines be strengthened to include
               procedures to verify the identity of the requestor, the organization of the requestor,
               the nature of the request, and the specific purpose for assistance. AMOC officials
               concurred and revised SOP-01 to reflect our recommendations during this site
               visit.

               As a result of our audit, AMOC staff also developed an electronic contact
               database for DSS use on the operations floor to help track all calls for assistance
               and information. An electronic contact card is to be filled out when someone from
               outside ICE calls and requests assistance, information, or assets and when AMOC
               calls an outside agency requesting their assistance or providing information. This
               contact database will allow AMOC to retrieve information easier and faster.

               AMOC’s Written Procedures Were Not Always Followed

               AMOC’s written procedures for providing assistance to federal, state, and
               local law enforcement agencies were not always followed. AMOC staff did
               not always log entries into the Air Watch Log; and AMOC staff did not always
               notify supervisors of significant or unusual requests. In addition, AMOC did not
               always comply with guidance on shift scheduling for the operations floor. Failure
               to comply with written guidelines governing the assistance AMOC provides to
               federal, state, and local law enforcement agencies creates the potential that public
               trust may be abused, federal resources misused, and sensitive information may be
               inappropriately disclosed.

                   •    AMOC staff did not always log entries into the automated Air Watch Log.
                        According to AMOC’s Training and Operations Manual, Chapter 4, MIS
                        Documentation, all requests (by whom, for what, and the results) must
                        be logged into the automated Air Watch Log. The Air Watch Log is an
                        automated daily log in which all pertinent events, as well as information
                        surrounding those events, should be logged in a clear and concise manner
                        by the DSS. According to AMOC’s SOP-01, Personnel Responsibilities
                        and Duties, SDSSs are responsible for ensuring the accuracy and
                        completeness of operations floor documentation, i.e., Air Watch Logs and
                        Track Logs, during their shift. There was some uncertainty and confusion



AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies          Page 13
                  on the part of the operations floor staff regarding the requirement to log
                  entries into the automated Air Watch Log.

             •    AMOC staff did not always notify supervisors of significant or unusual
                  requests. According to Chapter 4 of the Training and Operations Manual,
                  certain situations may occur that need to be documented in more detail
                  than what is required or recorded in the daily operations log. This could
                  include any unusual request or incident where the supervisor should be
                  made aware. In some cases, AMOC staff did not believe the request or
                  event was significant or unusual, and therefore, did not notify supervisors.
                  Consequently, significant or unusual requests may not receive the proper
                  priority or response.

             •    Τhe hiring and training of a DSS can be a lengthy process. Locating,
                  identifying, and tracking suspect aircraft require a unique set of both
                  operational and technical skills. Operations personnel are required to
                  develop an intimate knowledge of air smuggling organizations, traffic
                  patterns, potential terrorists targets, terrain features, drug trafficking
                  routes, and transshipment points. On the average, it takes a minimum
                  of six months to complete the hiring process for a new DSS. Once on
                  board, it takes between eight to ten months to train and certify a new DSS
                  at AMOC. According to AMOC staff, AMOC’s workload has increased
                  as a result of the Customs transition into DHS and the increase in law
                  enforcement responsibilities for terrorism.

          Recommendations

          We recommend that the AMO Director:

          1. Revise AMOC guidelines for providing assistance to federal, state, and local
          agencies in law enforcement and emergency humanitarian efforts to include
          procedures to verify the identity of the requestor, the organization of the requestor,
          the nature and type of the request, e.g., law enforcement or humanitarian, and
          the specific purpose for assistance. If existing procedures regarding staffing
          requirements or operational priorities are no longer valid or practical, AMO
          should update them to reflect what is reasonable and necessary.




Page 14    AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies
               Management Comments

               AMO management concurred with our recommendation. The AMOC Training
               Office issued revised written procedures that address our concerns on October 15,
               2003.

               OIG Comment

               The actions taken by AMOC meet the intent of our recommendation.

               2. Provide refresher training for all operations floor staff and reiterate the
               importance of understanding and following existing procedures to ensure that
               policies and procedures for providing assistance to law enforcement agencies are
               properly and consistently followed.

               Management Comments

               AMO management concurred with our recommendation. The AMOC basic
               training syllabus has been rewritten and specifically addresses the issues raised
               in the OIG review. The training builds upon the revised procedures addressed in
               Recommendation 1. Operational personnel received refresher training the week
               of October 20, 2003, on the revised procedures and supervisors are enforcing the
               new procedures.

               OIG Comment

               The actions taken by AMOC meet the intent of our recommendation.

               3. Document the type of assistance provided, e.g., law enforcement or
               humanitarian, so that these statistics can be easily tracked by the new electronic
               contact database developed by AMOC.

               Management Comments

               AMO management concurred with our recommendation. AMOC has a panel
               of experts that is developing the statistical requirements that should be included
               in AMOC’s tracking database. AMO management estimated that it would take
               approximately 12 months to update its electronic contact database.




AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies         Page 15
              OIG Comment

              The actions taken and planned by AMOC meet the intent of our recommendation.

AMOC Needs To Establish Performance Measures To Assess Its
Effectiveness and Productivity
              AMOC did not have organizational measures or individual performance standards
              in place to assess the effectiveness and productivity of the operations floor and
              its personnel. In addition, AMOC was not currently preparing management
              reports that included productivity, evaluation, and standardization summaries on
              operations floor activity. According to the AMOC officials, AMOC did not have
              performance measures because it was difficult to develop meaningful performance
              measures that were fair and equitable given that many factors influencing
              AMOC’s performance were outside AMOC’s control. AMOC ceased preparing
              management reports that included productivity, evaluation, and standardization
              summaries on operations floor activity in February 2003. According to the
              AMOC Director and the SDSS who had previously prepared the reports, AMO
              Headquarters no longer required the reports. Also, the SDSS who previously
              prepared the reports was reassigned to the operations floor and no longer had
              time to prepare the complex and labor-intensive reports. Without meaningful
              performance measures and productivity reports, AMOC cannot effectively (1)
              assess how well AMOC is meeting its mission, strategic goals, and objectives;
              (2) evaluate overall operations floor productivity, individual DSS productivity,
              and compliance with management initiatives; and (3) identify trends on the
              operational floor and areas for improvement.

              The Government Performance and Results Act (GPRA) of 1993 was enacted
              by Congress to promote a new focus on improving program performance and
              to provide greater accountability for results within the federal government.
              GPRA provides a foundation for examining agency missions, performance
              goals and objectives, and results. GPRA requires that federal agencies develop
              and implement an accountability system based on performance measurement,
              including setting goals and objectives, a description of how the goals and
              objectives are to be achieved, and measuring progress toward achieving them.
              A key objective of GPRA is to help Congress, the Office of Management and
              Budget, and other executive agencies develop a clearer understanding of what is
              being achieved in relation to what is being spent. Linking planned performance




Page 16        AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies
               with budget requests and financial reports is an essential step in building a culture
               of performance management.

               From August 2000 to February 2003, the AMOC Director assigned a SDSS
               to act as a full-time Facility Standardization Officer (FSO). One of the FSO’s
               responsibilities was preparing numerous management reports, including
               productivity, evaluation, and standardization summaries. Also, the supervisor on
               the operations floor produces a daily morning summary for AMO Headquarters.
               However, these summaries are not broken down by DSS and they do not
               effectively measure individual productivity.

               Management reports can be a useful tool for developing performance measures
               for AMOC and for evaluating how well AMOC is meeting its strategic goals and
               objectives. Management reports can also be useful for identifying trends on the
               operations floor, productivity, and areas for improvement.

               Recommendations

               We recommend that the AMO Director:

               4. Develop organizational performance measures and individual performance
               standards to evaluate the effectiveness and productivity of both AMOC and its
               personnel.

               Management Comments

               AMO management concurred with our recommendation. AMOC’s senior staff is
               revising its current performance measures to reflect better the effectiveness and
               productivity of assigned personnel. AMO management estimated that it would
               take approximately 12 months to complete the revisions.

               OIG Comment

               The actions taken and planned by AMOC meet the intent of our recommendation.

               5. Prepare meaningful productivity reports to show workload statistics that
               measure overall operations floor and individual DSS productivity. These reports
               should also document the number and type of assistance provided, i.e., whether
               law enforcement or humanitarian.




AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies          Page 17
          Management Comments

          AMO management concurred with our recommendation. AMOC’s senior
          leadership will define appropriate reports needed to measure overall DSS
          productivity and address our concerns. This work is in progress and AMO
          management estimated that it would take approximately 12 months to complete.

          OIG Comment

          The actions taken and planned by AMOC meet the intent of our recommendation.




Page 18    AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies
                                                                        Appendix 1
                                                                        Purpose, Scope, and Methodology



Purpose, Scope, and Methodology
                    Our overall objective was to assess the propriety of AMOC’s existing guidelines
                    for rendering assistance to federal, state, and local law enforcement agencies.
                    Specific objectives were to:

                        •    Document the authority that established AMOC’s mission;
                        •    Evaluate the appropriateness of AMOC’s written policies and procedures
                             governing the assistance it provides to federal, state, and local law
                             enforcement agencies;
                        •    Determine how these policies and procedures have been applied in the
                             past; and
                        •    Determine whether the type of assistance AMOC provided to the DPS was
                             consistent with its existing policies and procedures and its mission under
                             the DHS.

                    To accomplish our audit, we conducted fieldwork at AMO Headquarters in
                    Washington, D.C.; the AMOC facility in Riverside, California; and the NCRCC
                    in Herndon, Virginia. We reviewed applicable governing laws, regulations,
                    and legal authorities related to AMOC’s mission. We also reviewed AMOC’s
                    policies, SOPs, Training and Operations Manual, Training Plan, AMOC position
                    descriptions, MOUs, and other relevant documentation pertaining to providing
                    law enforcement and humanitarian assistance. We also reviewed information
                    for the months of March and July 2003 to determine the number and nature of
                    telephone calls AMOC received.

                    To obtain a thorough understanding of AMOC’s mission and policies for
                    rendering assistance, we interviewed key AMOC personnel, including its Director,
                    Assistant Directors, Operations Officers, Training Officer, numerous SDSSs,
                    DSSs, SCDOs, and a Command Duty Officer, as well as staff from AMOC’s
                    Intelligence and Communications Sections. We interviewed AMO personnel
                    to discuss AMO’s role and relationship with AMOC and funding for AMOC.
                    We also interviewed attorneys from ICE and Customs and Border Protection to
                    discuss AMOC’s mission and its legal authorities.

                    We conducted our audit between July 2003 and September 2003 according
                    to generally accepted government auditing standards. A listing of the major
                    contributors to this report is included in Appendix 4.




     AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies           Page 19
Appendix 2
Management Comments




Page 20           AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies
                                                                                Appendix 2
                                                                                Management Comments




AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies           Page 21
Appendix 2
Management Comments




Page 22           AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies
                                                                                      Appendix 3
                                                                                      Recommendations



               We recommend that the AMO Director:

               Recommendation 1: Revise AMOC guidelines for providing assistance
               to federal, state, and local agencies in law enforcement and emergency
               humanitarian efforts to include procedures to verify the identity of the requestor,
               the organization of the requestor, the nature and type of the request, e.g., law
               enforcement or humanitarian, and the specific purpose for assistance. If existing
               procedures regarding staffing requirements or operational priorities are no longer
               valid or practical, AMO should update them to reflect what is reasonable and
               necessary.

               Recommendation 2: Provide refresher training for all operations floor staff and
               reiterate the importance of understanding and following existing procedures to
               ensure that policies and procedures for providing assistance to law enforcement
               agencies are properly and consistently followed.

               Recommendation 3: Document the type of assistance provided, e.g., law
               enforcement or humanitarian, so that these statistics can be easily tracked by the
               new electronic contact database developed by AMOC.

               Recommendation 4: Develop organizational performance measures and
               individual performance standards to evaluate the effectiveness and productivity of
               both AMOC and its personnel.

               Recommendation 5: Prepare meaningful productivity reports to show workload
               statistics that measure overall operations floor and individual DSS productivity.
               These reports should also document the number and type of assistance provided,
               i.e., whether law enforcement or humanitarian.




AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies            Page 23
Appendix 4
Major Contributors To This Report



                     Alexander Best, Jr., Director, Border and Transportation Security Audit Division
                     Lynn Richardson, Audit Manager
                     Leigh Johnson-Steele, Auditor
                     Ronda Richardson, Auditor




Page 24               AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies
                                                                                      Appendix 5
                                                                                      Report Distribution



               Department of Homeland Security

               Under Secretary, Border and Transportation Security
               DHS OIG Liaison

               Immigration and Customs Enforcement

               Assistant Secretary
               Director, Office of Air and Marine Operations
               Director, Air and Marine Operations Center
               ICE OIG Liaison

               Office of Management and Budget

               Homeland Bureau Chief
               DHS OIG Budget Examiner

               Congress

               Committee on Governmental Affairs, United States Senate
               Select Committee on Homeland Security, U.S. House of Representatives
               Committee on Government Reform, U.S. House of Representatives
               Committee on the Judiciary, U.S. House of Representatives




AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies               Page 25
Attachment
Redacted Transcript of First DPS Tape



                               Redacted Transcript of First DPS Tape
                          (Originally Transcribed by AMOC Operations on June 25, 2003, with
                                         Minor Clarifications Made by OIG)

ABBREVIATIONS:

AMICC           Air and Marine Interdiction Coordination Center
AMOC            Air and Marine Operations Center
AUS             Austin-Bergstrom International Airport
DPS             Department of Public Safety
FBO             Fixed Base Operator
SAS             Santa Fe Airport

LEGEND:

AMOC1:                  AMOC Senior Detection System Specialist1
AMOC2:                  AMOC Telecommunications Specialist
AMOC3:                  AMOC Detection System Specialist
AMOC4:                  AMOC Senior Detection System Specialist2
AMOC5:                  AMOC Senior Detection System Specialist3
DPS1:                   Texas Department of Public Safety

Start of Call

Call #1 (First Request)

AMOC1:          AMICC radar, [AMOC1].

AMOC2:          Yeah [AMOC1], here’s a call for ya from Austin Texas.

AMOC1:          Okay. Hello this is [AMOC1].

DPS1:           [AMOC1], my name is [DPS1] with the Texas Department of Public Safety in Austin
                Texas, how ya doing?

AMOC1:          Good.

DPS1:           I have twelve tail numbers that left out of an FBO in Austin Texas on Saturday night
                Sunday morning.




Page 26                  AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies
                                                                          Attachment
                                                                          Redacted Transcript of First DPS Tape



AMOC1:          Uh-huh.

DPS1:          And what I’m looking for is a...common...uh...I’m sure they all had to fly...file flight plans
               cause they were multi engine big planes.

AMOC1:          Uh-huh.

DPS1:           I’m looking for a common destination…that that…I don’t know what plane I’m looking
                for…I’m looking for three or four of the planes that went to a specific location.

AMOC1:          Okay.

DPS1:          Would you…what could I, …how would I be able to get that information?

AMOC1:          Uh…well uh let me hand you off to the uh…uh…to the gulf coast desk and he’ll take
                the tail numbers, he can run them for ya…and uh…it will take a little while and he’ll
                probably have to call you back.

DPS1:          All right appreciate it.

AMOC1:          Uh…and then we can see if we got anything common to them.

DPS1:          Thank you.

AMOC1:          Hold on just a minute.

                          End of conversation – call transferred
        __________________________

Dial tone

AMOC3:          Hello.

DPS1:          Yes, this is [DPS1] with DPS.

AMOC3:         Yeah.

DPS1:           Uh…whom I speaking with?

AMOC3:         This is [AMOC3].



         AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies            Page 27
Attachment
Redacted Transcript of First DPS Tape



DPS1:         [AMOC3], what I have…is I have twelve…uh about fourteen…uh tail numbers that all
              left from the same FBO…Saturday night and Sunday morning.

AMOC3:        Uh-huh.

DPS1:         And they all...I’m looking for...where two or three of them went to the
              same destination.

AMOC3:        Okay let me have the numbers.

DPS1:         You ready?

AMOC3:        Yeah…(garbled, sounds like if I thought) they have to file a flight plan…if they didn’t
              there’s no way of telling.

DPS1:         I understand that, but I …these are all multi-engine…pretty big planes.

AMOC3:        Okay.

DPS1:         So I feel comfortable they did. Now I…I’m not…I don’t know airplane jargon so you’ll
              have to bear with me a little bit.

AMOC3:        Okay, all need is the tail numbers.

DPS1:         Alright…598 Charles William.

AMOC3:        598 Charlie Whisky.

DPS1:         Nine hundred, Queen Sam.

AMOC3:        Quebec Sierra…(laugh)…oh that first one was Charlie Whisky right?

DPS1:         Yeah, Charlie, yeah.

AMOC3:        For some reason I wrote Charlie Sierra.

DPS1:         Okay.

AMOC3:        Okay, go ahead third one?




Page 28                 AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies
                                                                         Attachment
                                                                         Redacted Transcript of First DPS Tape



DPS1:          Uh…nine hundred…okay the third one was 401…uh…G…J or George, John.

AMOC3:         Gulf Juliet.

DPS1:          Okay, I …I…(Garbled)

AMOC3:         I’ve…I’ve been with ya. (Laugh)

DPS1:          3541 Queen.

AMOC3:         One…Quebec, okay.

DPS1:          Uh…ninety-eight, three Quebec Sam.

AMOC3:        Three…(Garbled).

DPS1:          Sierra, Sierra.

AMOC3:         Sierra.

DPS1:          376 Quebec Sierra.

AMOC3:         Okay.

DPS1:          288 Charlie Whisky.

AMOC3:         Okay.

DPS1:          Uh…106 Sierra Tom.

AMOC3:        Tango.

DPS1:         Tango, I’m…I’m…I’m learning (laughing) 364…Lincoln Quebec.

AMOC3:         Lima Quebec.

DPS1:          829…nor…uh…November…uh…Lincoln…er.

AMOC3:         Lima.




        AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies            Page 29
Attachment
Redacted Transcript of First DPS Tape



DPS1:           Lima, 306 Quebec Sierra.

AMOC3:          Okay.

DPS1:          And seven, excuse me, 676 Quebec Sierra.

AMOC3:          Okay.

DPS1:           914 Sierra Henry.

AMOC3:          Sierra Hotel.

DPS1:          And 446 Charlie Whisky.

AMOC3:          Charlie Whisky, ya got a callback number?

DPS1:           Uh…yes sir, its 512-424…uh…hold on just a second, 512-424-57…uh 68.

AMOC3:          Okay, I’ll call…I’ll be calling you back.

DPS1:          Thank you sir, bye-bye.

AMOC3:          Right

                         End of Call
          ---------------------------------------




Page 30                   AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies
                                                                         Attachment
                                                                         Redacted Transcript of First DPS Tape



Call #2 (First Request)

Dial tone

Ringing

DPS1:         This is [DPS1].

AMOC3:         Hey this is [AMOC3].

DPS1:         Yes Sir.

AMOC3:         Hey when did these guys take off?

DPS1:          Oh, uh…. the first three took off on the 10th and out the 10th (Garbled) after 8 o’clock.

AMOC3:         Uh-huh.

DPS1:         The rest took off Sunday…probably between 6 am and noon.

AMOC3:         Okay, I just needed the date, so I have to go back in to the archives.

DPS1:          Okay then…the one was on the…I guess 10th and the other was on the 11th.

AMOC3:         Okay, thank you.

DPS1:          Bye-bye [AMOC3].

                    End of call
          ______________________




        AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies            Page 31
Attachment
Redacted Transcript of First DPS Tape



Call #3 (First Request)

Dial tone

Ringing

              RECORDING: You’ve reached the office of [DPS1], criminal law enforcement, I’m
              unable to…get to the phone right now, if you’ll leave a name and number I’ll get back
              with you. (Beep)

AMOC3:        Hey [DPS1] this is [AMOC3] with Customs, uh…you never…you told me they took off
              out of the same FBO, uh…Oh, I need to find out which FBO it was so I’ll know which
              uh…which airport to look for that uh…. that these guys took off out of, so if you could
              give me a call back, thank you.

                    End of call
          _________________________




Page 32               AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies
                                                                         Attachment
                                                                         Redacted Transcript of First DPS Tape



Call #4 (First Request)

                        Unidentified person saying “yeah”

AMOC4:        AMICC, [AMOC4].

DPS1:          Hey, Hey…ho hold on a second okay…hold on. Uh…[AMOC3]?

AMOC4:        Who?

DPS1:          [AMOC3]?

AMOC4:         [AMOC3] who?

DPS1:          I don’t know his last name…uh…he was at the gulf coast desk.

AMOC4:         Okay hold on.

Dial tone

AMOC3:         Hello.

DPS1:          [AMOC3]?

AMOC3:        This [DPS1]?

DPS1:         Yeah.

AMOC3:         Hey uh…what airport what FBO airport…did they take off?

DPS1:          Signature aviation out of Austin…uh.

AMOC3:         Okay.

DPS1:          (garbled) Bergstrom International.

AMOC3:        We’ve been trying to figure which airport they took…there’s a lot departures out of
              different places.




        AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies            Page 33
Attachment
Redacted Transcript of First DPS Tape



DPS1:         I…I know and I apologize…as soon as you…you said that I said dad-gumit I forgot
              to (unintelligible). Yeah but it out of Signature Aviation…uh…Austin-Bergstrom
              International.

AMOC3:        Okay just out of Austin…AUS.

DPS1:         Yeah.

AMOC3:        Okay so far we’ve only found one that’s taken off out of there that filed a flight plan, the
              rest of them...the earliest one is 6 May that they took off out of, and the next three are…
              none…uh but we’ll get all the ones out of Austin together and then I’ll call you back.

DPS1:         Alright…what…what…I tell you what …you know that…where it starts at 3541…. uh
              Quebec.

AMOC3:        Uh-huh.

DPS1:         It’s gonna probably…that gonna probably be…the…the …the Sunday morning.

AMOC3:        Yeah, 3541 Quebec there was nothing.

DPS1:         Okay.

AMOC3:        I’ll run him again in…November 3541…Quebec.

DPS1:         And those would’ve been on the 11th.

AMOC3:        And deep archives…so he had to…there’s nothing even in deep archives that he ever
              filed a flight plan.

DPS1:         Okay. Uh…what about the other ones?

AMOC3:        I’ve only got…uh…one…two, three, four, five, six of them done so far…and uh…two of
              them are 6 May, one of them was nothing, uh…two of them was uh…three of them was
              nothing…and the 376 Quebec Sierra uh…was uh… out of the Bahamas.

DPS1:         Okay.

AMOC3:        And I haven’t got the last of them, and one of them is out of Austin so far…




Page 34                 AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies
                                                                         Attachment
                                                                         Redacted Transcript of First DPS Tape



DPS1:          Okay then.

AMOC3:         …on 12 May though.

DPS1:          But…which one…on 12 May?

AMOC3:         That was today.

DPS1:          Oh…Okay.

AMOC3:        That was 914 Sierra Hotel…so that wouldn’t matter; it would be the 10th or the 11th
              you’re looking for.

DPS1:          Exactly.

AMOC3:         Yeah, okay, thank you sir.

DPS1:         Yeah, bye-bye.

                   End of call
         _________________________




        AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies            Page 35
Attachment
Redacted Transcript of First DPS Tape



Call #5 (First Request)

Dial tone

Ringing

DPS1:         This is [DPS1].

AMOC3:        This is [AMOC3].

DPS1:         Yes sir.

AMOC3:        Okay, I only had two departures…uh…three departures out of Austin, and only two of
              them on the 11th and…. neither one of them went to the same place, one went to David
              Wayne Hooks and one of them…let’s see where SAS is at.

DPS1:         S…that’s SAS.

AMOC3:        That’s Santa Fe.

DPS1:         One of them went to Santa Fe?

AMOC3: SA…I am checking to see which one that is…(someone in background: “what, what
          number?”) yeah Santa Fe, New Mexico. (Someone in background: “thanks”)

DPS1:         Which one went to Santa Fe?

AMOC3:        That was 106 Sierra Tango. And he went there on the 11th.

DPS1:         I sure do appreciate it.

AMOC3:        Not a problem.

DPS1:         Thank ya.

AMOC3:        Alright, bye.

DPS1:         Bye-Bye.

                    End of call
          _____________________

Page 36                  AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies
                                                                           Attachment
                                                                           Redacted Transcript of First DPS Tape



Call #6 (First Call of Second Request)

(Transcribed by AMOC Operations on June 26, 2003)

Dial Tone

AMOC5:           Operations, [AMOC5]

DPS1:            Uh…Texas desk.

AMOC5:           Stand by.

-----------------------------------------------------------

OIG ROI, dated June 13, 2003, picked up here.




          AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies            Page 37
Page 38   AMOC Needs To Improve Written Guidelines For Providing Assistance To Other Agencies
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland Security, Washington, DC
20528, Attn: Office of Inspector General, Investigations Division – Hotline. The OIG
seeks to protect the identity of each writer and caller.
